HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Program Support Centers Award Process for a Contract With TCOM
International, Inc.," (A-03-06-00523)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of Program Support Centers
Award Process for a Contract With TCOM International, Inc.," (A-03-06-00523)
May 30, 2007
Complete
Text of Report is available in PDF format (76 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit is one of several reviews of procurements by the
Program Support Center (PSC)
and other components of the Department of Health and Human Services (HHS) in
response to Hurricanes Katrina and Rita in 2005.
The Federal Acquisition
Regulation (FAR) and the Health and Human Services Acquisition Regulation (HHSAR)
provide, among other things, that HHS agencies award each contract to a
responsible party and document compliance with requirements for full and open
competition and the determination that the price was fair and reasonable.
As part of HHSs hurricane relief operations, PSC awarded a
contract to TCOM International, Inc. (TCOM), to furnish
service and equipment for two high-speed satellite communication systems.  Our
objective was to determine whether PSC complied with FAR and HHSAR requirements
during the award process involving TCOM.  PSC complied with the requirements.